           U.S. Department of Energy
           Office of Inspector General
           Office of Audit Services




Evaluation Report

Resolution  of Significant
The Department's           Finding
                       Unclassified
Investigation
Cyber         Recommendations
        Security  Program—2006




DOE/IG-
DOE/IG-0738                             November2006
                                     September   2002
                             Department of Energy
                                 Wash~ngton,DC 2 0 5 8 5




MEMORANDUM FOR

FROM:
                        lnspector General

S1JBJ ECT:              INFORMATlON: Evaluation Report on "The Department's
                        Unclassified Cyber Security Program - 2006"

BACKGROUND

To help accomplish its strategic goals in the areas of defense, energy, science and the
environment, the Department utilizes numerous interconnected computer networks and
individual systems. Virtually all of the Department's systems are increasingly subjected
to sophisticated attacks designed to circumvent security measures, trick unsuspecting
users into divulging sensitive information or propagate harmful programs. A strong
cyber security program is essential to minimizing adverse impacts on Department
mission associated with successful attacks or intrusions and protecting operational,
personally identifiable and other sensitive data from compromise. Overall, the
Department expects to invest over $295 million in Fiscal Year (FY) 2006 to protect its
annual $2 billion investment in infornlation technology resources.
-.
 i ne Federai Infom~ationSecunty Management Act (FISMA) provides a comprehensive
framework for ensuring the effectiveness of security controls over infornlation resources
that support Federal operations and assets. As required by FISMA, the Office of
lnspector General conducts an annual independent evaluation to determine whether the
Department's unclassified cyber security program adequately protects data and
information systems. This memorandum presents the results of our evaluation for
FY 2006.

RESULTS OF EVALUATION

The Department had taken a number of steps to strengthen its cyber security posture.
During the last year, it had launched a cyber security revitalization program and issued
enhanced guidance designed to strengthen protective efforts. While these were positive
steps, we continued to observe deficiencies that exposed its critical systems to an
increased risk of compromise. In several respects, these findings parallel those reported
in 2005. Specifically, for 2006, we found that:

       In spite of recent improvements in reporting methodologies and standards, the
       Department had not yet completed a complex-wide inventory of its information
       systems;
       Many system certifications and accreditations had not been performed or were
       inadequate in that they lacked essential elements such as annual self-assessments
       and independent testing of security controls;

       Contingency planning, vital to ensuring that systems could continue or resume
       operations in the event of an emergency or disaster, had not been completed for
       certain critical systems; and,

       Weaknesses existed in physical, logical access, and change controls designed to
       protect computer resources from unauthorized modification, loss, or disclosure of
       information.

Continuing cyber security weaknesses occurred, at least in part, because program and
field elements did not always implement or properly execute existing Departmental and
Federal cyber security requirements. In a number of instances, cyber security weaknesses
exposed through internal and external reviews were not addressed in a timely manner or
tracked to resolution. As a consequence, the Department's information systems and
networks and the data they contain remain at risk of compromise.

To help address continuing weaknesses, the Department recently launched a
revitalization effort designed to improve the management of its cyber security program
and to emphasize line management's responsibility - through each of the Under
Secretaries - to ensure that systems and data under their operational control are secure.
As part of this effort, the Department issued new and updated cyber security guidance
designed to strengthen controls over the certification and accreditation process; password
management; and, the use and control of wireless devices. In addition, the Office of
Science's Office of Information Technology Management, in conjunction with the Office
of Health, Safety and Security's Office of Independent Oversight, conducted a number of
site visits to help identify and quickly resolve cyber security problems. These processes,
if implemented complex-wide, should help the Department resolve existing weaknesses
and strengthen its overall cyber security posture. To aid the Department in its ongoing
efforts, we have made several recommendations designed to enhance overall controls.

The Department and its program elements also recently developed policies and guidance
to address Office of Management and Budget requirements for ensuring security over
personally identifiable information. We are in the process of conducting a
comprehensive review of efforts. Because of its importance to the cyber security
program, we are also in the process of conducting a separate review that more fully
examines the state of certification and accreditation across the Department.

Due to security considerations, information on specific vulnerabilities and locations has
been omitted from this report. Management officials at the sites evaluated were provided
with detailed information regarding identified vulnerabilities, and in many instances,
initiated corrective actions.
MANAGEMENT REACTION

Management concurl-ed with our findings and recommendations. Where appropriate, we
incolporated Management's suggestions into the body of the report.

Attachment

cc: Deputy Secretary
    Adm~nistrator,National Nuclear Security Administration
    Llndcr Secretary for Energy
    Llndcr Secretary for Science
    Chrci' of Staff
    Chief Information Officer
EVALUATION REPORT ON THE DEPARTMENT'S UNCLASSIFIED
CYBER SECURITY PROGRAM - 2006



TABLE OF
CONTENTS

              Unclassified Cyber Security Proqram

              Details of Finding ................................................................... 1

              Recommendations and Comments......................................... .8


              Appendices

              1. Objective, Scope, and Methodology ................................ 10

              2. Prior Reports ................................................................... .12

              3. Management Comments .................................................. 15
UNCLASSIED CYBER SECURITY PROGRAM

PROGRAM          'The Department of Energy (Department) continued efforts
IMPROVEMENTS     to strengthen its cyber security program and had implemented a
                 number of measures to reduce vulnerabilities such as those
                 described in our Evul~lutionReport on the Depnrtrnentfs
                               Cyber Security Progrurn - 2005 (DOEIIG-0700,
                  UncluLsLsijled
                 September 2005). Since last evaluation, the Department
                 appointed a new Chief Information Officer who has taken steps
                 to restructure the Department's approach to c yber security. For
                 instance, the Revitalization ($the Depurtrnent qf'Energy\s
                  Cyher Security Progranl was developed to improve the
                 management of the program and emphasize line management's
                 responsibility - through each of the Under Secretaries - to
                 ensure that systems and data under their operational control are
                 secure. Specific components of the revitalization effort
                 include:

                      Issuing new and updated cyber security guidance
                      addressing areas such as certification and accreditation,
                      risk management, vulnerability management, contingency
                      planning, password management, wireless devices, and
                      protection of personally identifiable information;

                      Initiating a collaborative effort between the Office of
                      Chief Information Officer (OCIO), the Office of Health,
                      Safety and Security's Office of Independent Oversight,
                      and the Office of Science to conduct joint site visits to
                      identify and resolve cyber security problems; and,

                      Improving the process for reporting c yber security
                      incidents to law enforcement officials.

                 In addition, the Department continues to strengthen its defense
                 in depth approach to network protection, a practice that has
                 helped it repel external attacks and reduce the risk of
                 propagation of malicious code, viruses or worms across
                 systems. These efforts, if implemented complex-wide, should
                 help the Department resolve existing weaknesses and
                 strengthen its overall cyber security posture.


MANAGING CYBER
RELATED RISK     Inventory and Evaluation of Critical Information Systems

                 While the Department's revitalization efforts hold promise to
                 improve its overall cyber security posture, existing problems
                 continue to place critical information systems and data at risk
                 of compromise. Our evaluation disclosed that a


Page 1                                                  Details of Finding
         comprehensive inventory of all operational information
         technology (IT) systems, an essential component of a risk-
         based approach to cyber security, remained incomplete.
         Certification and accreditation (C&A) of all operational
         information systems had either not been completed or were
         inadequate. Most significantly, our testing disclosed that for
         a number of systems, risk levels and needed control measures
         had not been properly assessed, implemented, and tested. At
         certain sites, organizations had not taken appropriate
         measures to safeguard their systems in the event of an
         emergency. These processes are essential components of a
         risk management strategy and provide a framework for
         managing threats to agency operations, assets, and
         employees.

                           Systems Inventory

         Even though required by the Federal Information Security
         Management Act (FISMA), the Department had not yet
         established a complete inventory of systems. Agencies are
         required to develop a system inventory that includes an
         identification of the interfaces between each system and all
         other systems or networks, including those not operated by or
         under the control of the agency. Complete inventory data is
         essential to determining the risks associated with system
         operation and interconnection with internal or external
         resources. The Department had developed a reporting
         methodology and standard to establish a Department-wide
         inventory, however, a complete inventory of information
         systems had not been established. While most sites
         maintained inventory information, its usefulness was
         sometimes limited because of issues such as inconsistent
         approaches to grouping systems and a lack of interconnection
         information. Completion of a complex-wide inventory is
         planned for September 2007.

                        Certification and Accreditation

         The Department had not completed or had not adequately
         performed certification and accreditation of all operational IT
         systems in accordance with Federal regulation. Specifically,
         at four sites we identified seven systems, some of which were
         core operational systems, for which the C&A process had not
         been completed. At 12 sites, organizations provided us with
         documentation supporting completion of the C&A process
         for systems we selected for review; however, we noted that
         many specific, detailed activities required by guidance


Page 2                                          Details of Finding
         promulgated by the Department and the National Institute of
         Standards and Technology (NIST) had not been performed.
         Based on our testing and that performed by the Office of
         Independent Oversight, we noted that:

              Risk categorization assessments of information systems
              had not been performed or were inadequate at six sites;

              Certain sites incorrectly used a broad grouping or
              "enclave" approach to complete C&A of their systems
              and grouped low risk systems with those requiring
              higher protection levels;

              At five sites, accreditation boundary information - data
              necessary to identify all system components - lacked
              sufficient detail to understand the system and determine
              the scope of certification and accreditation;

              Security plans at six sites were incomplete or missing
              critical elements, such as mandatory security controls:

              Independent assessments and certification of the
              effectiveness of security controls were not completed or
              documented at four sites as required;

              Annual self-assessments of all systems were not
              performed or were not performed in accordance with
              NIST guidance at six sites; and,

              At two sites, the role of Designated Accrediting
              Authority, the individual responsible for accepting risks
              associated with system operation and granting authority
              to operate, had been improperly delegated to a
              contractor official.

         Because of its importance to the Department's cyber security
         program, the Office of Inspector General is currently
         conducting a separate audit that more fully examines the state
         of certification and accreditation across the Department.

                         Contingency Planning

         Although previously reported weaknesses in contingency
         planning had been corrected, we continue to identify sites
         that had not taken the action necessary to ensure that their
         systems could maintain or resume critical operations in the
         event of emergency or disaster. Specifically, six sites had not

Page 3                                          Details of Finding
         adequately developed or tested contingency or disaster
         recovery plans for their financial or other major systems. In
         addition, two sites had inadequate provisions for restoring
         and backing up systems or system components. Recent
         events such as the damage associated with Hurricanes
         Katrina and Rita demonstrate the importance of maintaining
         robust contingency capability. Inadequate contingency
         planning could delay restoring critical operations or
         potentially lead to the loss of critical information should
         unforeseen and unplanned events such as those occur.

         Security Controls

         While the Department has taken action to strengthen controls
         and correct previously reported deficiencies, it continues to
         experience problems in the areas of access controls,
         segregation of duties, and configuration management. These
         controls, generally recognized as establishing a baseline for
         many other security controls, are essential for protecting
         systems from unauthorized or malicious modifications to
         systems or information.

                                Access Controls

         Even though sites corrected most of the access control
         problems reported last year, testing identified weaknesses at
         four sites during this year's evaluation. Strong and functional
         controls of this type are essential for ensuring that only
         authorized individuals gain access to network or system
         resources. Controls in this area consist of both physical and
         logical measures designed to protect computer resources
         from unauthorized modification, loss, or disclosure. In
         particular, we noted several instances where sites did not
         comply with Departmental policy:

            Two sites had blank, easily guessed, and/or original
            vendor default passwords, thus exposing them to the risk
            of unauthorized access to databases and operating
            servers:

            Three sites had passwords that were not changed at set
            intervals or were not of sufficient strength; and,

            At another site, incorrect login attempts were not
            restricted, an important control designed to prevent "brute
            force" access through repeated password guessing.



Page 4                                            Details of Finding
         One site also had not performed sufficient access reviews for
         the users of its general support system. These reviews are
         essential to determine whether users who no longer have a
         valid need to access information systems, such as through job
         changes or resignations, are denied access to these systems.

               Configuration Management and Change Controls

         Configuration management and change control issues
         continue to be a problem and our evaluation identified
         weaknesses at seven of the Department's sites. Controls of
         this type help ensure that computer applications and systems
         are managed to prevent and protect against unauthorized
         modifications and are essential to a coordinated and strong
         security policy. We noted problems such as not:

            Replacing or updating software with known
            vulnerabilities - a process generally known as patch
            management. Unless properly completed, systems are
            exposed to an increased risk of attack or compromise
            because available security updates are not applied or are
            not executed in a timely manner.

            Ensuring that changes to systems or applications were
            properly managed and controlled. Change control is the
            process that management uses to identify, document and
            authorize changes to an IT environment. For example,
            one site's documentation did not demonstrate that
            software changes had been consistently approved by
            authorized personnel prior to being implemented. A
            system at another site did not have the audit logging
            function enabled, a feature that permits the actions
            performed by users with privileged accounts to be
            monitored. Without proper change controls, individuals
            may create and put into production improper,
            unauthorized, or malicious program modifications.

         In addition, configuration standards necessary for ensuring
         uniformity and adequacy in the level of computer security
         across the complex were not consistent. Although required
         by Department and Office of Management and Budget
         (OMB) guidance, we found that four organizations had not
         adopted minimum security configuration standards. Also,
         two organizations had not included procedures in their
         security plans governing how to document and seek approval
         for necessary deviations from such standards.



Page 5                                         Details of Finding
CYBER SECURITY   As with previous years, the problems cited in our
PROGRAM          report occurred, at least in part, because the
MANAGEMENT       Department's organizations had not always ensured that
                 Department and Federal cyber security requirements were
                 properly implemented. The OCIO also had not completed
                 required independent verification and validation activities
                 necessary to monitor cyber security performance of program
                 elements. Finally, the Department had not ensured that
                 organizations reported and tracked to resolution all cyber
                 security weaknesses in its Plan of Action and Milestones
                 (POA&M) database.

                       Implementation of Cyber Security Requirements

                 Departmental organizations did not always ensure that
                 Federal cyber security requirements, Department policies,
                 and controls were adequately implemented and consistent
                 with Federal requirements, most notably by field
                 organizations and facility contractors. For example, at the
                 direction of the Office of Science, many of its field sites
                 inappropriately applied NIST requirements for categorizing
                 system risk levels and applying corresponding security
                 controls, resulting in systems being protected at a lower level
                 than needed. Many sites also either did not complete or
                 adequately document completion of security control testing
                 and evaluations. Similarly, National Nuclear Security
                 Administration (NNSA) site officials continued to indicate
                 that they were required to comply with NNSA cyber security
                 policy, as opposed to meeting NIST requirements. However,
                 our review disclosed that no NNSA site had fully
                 implemented the NNSA cyber security policy. Instead, many
                 NNSA field sites were permitted to follow a less thorough
                 certification and accreditation process that did not include all
                 NIST or NNSA requirements.

                 In addition to the issues noted above, the Department had not
                 yet completed the process of modifying facility operating
                 contracts to incorporate all Federal c yber security
                 requirements. Although directives and program guidance are
                 generally incorporated in Contractor Requirements
                 Documents and appended to sitelfacility management
                 contracts, we learned that the Office of Science and the
                 NNSA had not ensured that this process was completed for
                 FISMA, OMB, and NIST cyber security requirements.
                 Including these requirements in operating contracts is critical




Page 6                                                   Details of Finding
         to the success of the cyber security program when one
         considers that virtually all of the Department's major
         facilities are managed and operated by contractors.

                             Department Oversight

         Our evaluation also disclosed that the OCIO had not
         regularly performed independent verification and validation
         (IV&V) activities essential to evaluating the adequacy of
         cyber security program performance. While we learned that
         some IV&V work was performed during May 2005 on
         selected system certifications and accreditations, findings
         from these efforts were never remediated. Officials from the
         OCIO explained that they informed responsible program
         officials of deficiencies identified, but had taken no other
         action to ensure that the findings were resolved. Although
         officials indicated that no additional work in that area had
         been performed, they also told us that they intended to
         perform a review of a sample of certification and
         accreditation packages during 2006. However, at the time of
         our evaluation, management informed us that it was unable to
         complete the planned reviews because of other pressing
         concerns.

                                Lessons Learned

         Similar to problems reported for the last several years, the
         Department had not always shared, identified, and tracked
         previously identified cyber security weaknesses.
         Specifically, the Department did not always use the cyber
         securlty POA&M management tool to its maximum
         advantage and had yet to permit program elements to share
         vulnerability information for lessons learned purposes.
         While one of the most powerful features of the database is its
         ability to track the status of cyber secur~tyweaknesses to
         resolution, its value has been limited because not all findings
         were included in the database and incorrect finding status
         was maintained. Our evaluation revealed that:

            Four sites did not use a POA&M to track and report
            security weaknesses that were discovered internally.
            These sites only tracked or reported security weaknesses
            identified by external organizations, such as the Office of
            Inspector General.

            Four of 25 cyber security weaknesses reported during our
            Fiscal Year (FY) 2005 evaluation were not recorded and

Page 7                                          Details of Finding
                        tracked in the database, and as a consequence, were not
                        included in quarterly status reports to OMB.

                       One of 8 repeat findings that were re-issued in FY 2006
                       was marked as completed in the POA&M database even
                       though it had not actually been corrected.

RESOURCES AND       Even though the Department has made progress in
DATA REMAIN AT      addressing cyber-related problems, the risk that its
RISK                information systems, networks, and the data they contain
                    may be compromised remains higher than necessary.
                    Without an increase in focus such as that contemplated in the
                    now-in-process cyber security revitalization plan, it is
                    unlikely that the risk will be substantially reduced. As with
                    other Federal agencies and commercial sector organizations,
                    sophisticated attacks and probes have significantly increased
                    the risk that sensitive operational, personally identifiable, and
                    other sensitive information could be accessed or exfiltrated
                    by malicious entities. At the time of our evaluation, the
                    Department had been subjected to 132 significant cyber
                    security incidents, consisting primarily of attempts to
                    compromise information by unauthorized users, malicious
                    code, and worms during FY 2006 -- a 22 percent increase
                    over last year. Inadequate protective measures leave valuable
                    information technology resources vulnerable to cyber attacks
                    from internal and external sources and could result in data
                    tampering and disruption of critical operations.


RECONINIENDATIONS   To correct the weaknesses identified in this report and
                    improve the effectiveness of the Department's cyber security
                    program, we recommend that the Chief Information Officer,
                    in coordination with the Administrator, NNSA, the Under
                    Secretary for Science, and the Under Secretary for Energy:

                        1. Correct, through the implementation of management,
                           operational, and technical controls, each of the
                           specific vulnerabilities identified in this report.

                        2. Ensure that cyber security guidance developed by the
                           Department and program offices is in direct
                           compliance with NIST guidance.

                        3. Complete the process of modifying the facility
                           operating contracts to incorporate all Federal cyber
                           security requirements.



Page 8                                                     Recommendations
                 4. Perform compliance monitoring activities to ensure
                    the adequacy of cyber security program performance.

                 5. Ensure that the POA&M management tool is used to
                     its maximum advantage by identifying, tracking to
                     resolution, and sharing cyber security weaknesses
                     across organizational elements.


MANAGEMENT   The Department agreed with the information contained
REACTION     in the report and concurred with each of the specific
             recommendations. It added that it would take appropriate
             follow up action and continue to work to improve its cyber
             security posture.


AU DlTOR     Management's comments are responsive to our
COMMENTS     recommendations.




Page 9                          Recommendations and Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy's
              (Department) Unclassified Cyber Security Program
              adequately protected data and information systems.


SCOPE         The audit was performed between February 2006 and
              September 2006 at several Department locations.
              Specifically, we performed an assessment of the
              Department's Unclassified Cyber Security Program. The
              evaluation included a limited review of general and
              application controls in areas such as entity-wide security
              planning and management, access controls, application
              software development and change controls, and service
              continuity. Our work did not include a determination of
              whether vulnerabilities found were actually exploited and
              used to circumvent existing controls. The Office of
              Independent Oversight performed a separate review of
              classified and national security information systems.


METHODOLOGY   To accomplish the audit objective, we:

                 Reviewed applicable laws and directives pertaining to
                 cyber security and information technology resources such
                 as FISMA, OMB Circular A-130 (Appendix III), and
                 Department Order 205.1 ;

                 Reviewed applicable standards and guidance issued by
                 NIST;

                 Reviewed the Department's overall cyber security
                 program management, policies, procedures, and practices
                 throughout the organization;

                 Assessed controls over network operations and systems to
                 determine the effectiveness related to safeguarding
                 information resources from unauthorized internal and
                 external sources;

                 Evaluated selected Headquarters' offices and field sites in
                 conjunction with the annual audit of the Department's
                 Consolidated Financial Statements, utilizing work
                 performed by KPMG LLP, the Office of Inspector
                 General (OIG) contract auditor. OIG and KPMG work
                 included analysis and testing of general application
                 controls for systems as well as vulnerability and
                 penetration testing of networks; and,

Page 10                         Objective, Scope, and Methodology
Appendix 1 (continued)

                           Evaluated and incorporated the results of other cyber
                           security review work performed by OIG, KPMG, the
                           Department's Office of Independent Oversight, the
                           Government Accountability Office (GAO), and
                           internal Department studies.

                    We also evaluated the Department's implementation of the
                    Govenlment Perjomzunce and Res~l1t.sAct and determined
                    that it had established performance measures for unclassified
                    cyber security. We did not rely solely on computer-
                    processed data to satisfy our objectives. However, computer-
                    assisted audit tools were used to perform probes of various
                    networks and drives. We validated the results of the scans by
                    confirming the weaknesses disclosed with responsible on-site
                    personnel and performed other procedures to satisfy
                    ourselves as to the reliability and competence of the data
                    produced by the tests.

                    'The evaluation was conducted in accordance with generally
                    accepted Government auditing standards for performance
                    audits and included tests of internal controls and compliance
                    with laws and regulations to the extent necessary to satisfy
                    our objective. Accordingly, we assessed internal controls
                    regarding the development and implementation of automated
                    systems. Because our review was limited, i t would not
                    necessarily have disclosed all internal control deficiencies
                    that may have existed at the time of our evaluation.

                    Officials from the Office of Chief Information Officer
                    waived the exit conference.




Page 11                               Objective, Scope, and Methodology
Appendix 2

                                   PRIOR REPOKTS


Office of Inspector General Reports

      Iiz.spection Report on Internal Controls for E-xcessing urzd S~irplu~sirzg
                                                                               Urzcla.s.sified
      Coinputers ~ r Los
                      t A1arno.s National Laboratory (DOEIIG-0734, July 2006). The
      report disclosed that Los Alamos National Laboratory (LANL) did not comply
      with internal controls applicable to excessing and surplusing a computer. This
      problem resulted in the unauthorized release of a computer hard drive containing
      unclassified documents. 'The report found that LANL had not, as required,
      sanitized the hard drive prior to processing the computer as excesslsurplus and
      removed the hard drive prior to transferring the computer for sale to auction.

      Special Iizrluirv Report Rt)lating to the Departrrzent of Eizergy's Respoiz.se to LI
      Conlprornise c$Persoiznel Datu, July 19, 2006. The report found that the
      Department of Energy (Department's) handling of the compromise of personnel
      data was largely dysfunctional and that the operational and procedural
      breakdowns were caused by questionable managerial judgments; significant
      confusion by key decision makers as to lines of authority, responsibility and
      accountability; poor internal communications, including a lack of coordination
      and a failure to share essential information among key officials; and, insufficient
      follow-up on critically important issues and decisions.

      Audit Report on Ir!fbr~i~ution
                                   Teclznologv Slipport Sen~icesut tlze Dt'purtrnent of
      Encr,yy:s Operating Coiztructor.~(DOEIIG-0725, April 2006). The report
      revealed that the Department lacked an effective means of managing and
      controlling contractor information technology (IT) support services costs. 'The
      Department had not established a comprehensive framework which would
      provide a corporate-wide approach to providing IT support services that included
      contractor-managed sites. Contractors were not required to accumulate
      information on IT costs or furnish it to Federal officials. The report disclosed that
      a number of contractors did not actively capture or track functional IT support
      costs, preventing contractor management and Federal officials from ma~ntaining
      visibility over the component costs of furnished services.

      Alidit oil Muntigerrrent of'tlzt)Departinentr.s Desktop Coinputer S(?fi-rvare
      Elzterprise License Agreenrents (DOEIIG-0718, January 2006). The report
      disclosed that the Department had not fully utilized or designed effective systems
      to manage its inventory of software licenses, or to track the usage of existing
      licenses. Specifically, the report stated that sites visited were not able to provide
      accurate information regarding software maintenance and usage due to the lack of
      effective systems for tracking such information. Unless progress is made in this
      area, the Department will continue to have difficulty assessing software needs and
      usage trends, ensuring effective utilization of existing licenses, and ensuring that
      enough licenses exist to support software installed on desktops.



Page 12                                                                     Prior Reports
Appendix 2 (continued)

      E1~trI11~ltioiz
                  Report on the Depurtr?rc~nt'.sUnclu.ssified Cyher Security Progrun~-
      2005 (DOEIIG-0700, September 2005). The report stated that there were
      continued systemic problems in the Department's cyber security program that
      exposed the Department's systems to an increased risk of compromise. The report
      cited weaknesses in the following areas: systems inventory, contingency
      planning, reporting of cyber security incidents, access controls, segregation of
      duties and configuration management. These problems occurred, at least in part,
      because program and field elements did not always implement or properly
      execute Department and Federal cyber security requirements. In addition, the
      Department had not always taken advantage of lessons learned through
      independent revlews to strengthen its cyber security posture. As a consequence,
      the Department's information systems and networks remain at risk of
      compromise.

      Specitrl Report o r 1 Mclrzugenzent Challenges ut tlze Depurtn~erltof Energy
      (DOEJIG-07 12, December 2005). 'The report identified information technology
      as one of the Department's most significant challenges related to management
      weaknesses in the Department's control structure. To its credit, senlor-level
      Departmental management officials have focused their attention on improving
      c yber security posture.

Government Accountability Office Reports

      /rz/hrrric~tior~
                    Sec~lritv:Wc)c~knesse.sPersist ut Fc~rlvrtrlAgrrzcirs Despite Progress
      Meiele in lniplc~ine~ltin~
                              Related Stututory Requirc~nient.~,   (GAO-05-552, July
      2005). 'The Government Accountability Office (GAO) found pervasive
      weaknesses in 24 major agencies' information security policies and practices
      which threatened the integrity, confidentiality, and availability of Federal
      information and information systems. Access controls were not effectively
      implemented; software change controls were not always in place; segregation of
      duties was not consistently implemented; continuity of operations planning was
      often inadequate; and, security programs were not fully implemented at the
      agencies. GAO stated that these weaknesses existed primarily because agencies
      had not yet fully implemented strong information security management programs.

      li~fhrrtic~tiorz
                    Security: E~nergingCyher Security 1.s.sue.s Tl~rc~rrten
                                                                         Fcderul
                    Sy,ste~n.s(GAO-05-23 1, May 2005). GAO found that many Federal
      Infi~ri~iutiorz
      agencies had not fully addressed the risks of emerging cyber security threats
      (spam, phishing, and spyware) as part of their required agency-wlde information
      security programs. In addition, GAO found that federal agencies were not
      consistently reporting incidents of spam, phishing, and spyware to a central
      federal entity.

      /r!fi)rrntitio~lSecurity: Federul Agencies Nc)c.cl to Ir?zprove Controls over Wireless
      Netu.orks (GAO-05-383, May 2005). GAO found that Federal agencies had not
      fully implemented key controls, such as pollcles, practices, and tools for operating
      wireless networks securely. The lack of key controls In federal agencies means


Page 13                                                                    Prior Reports
Appendix 2 (continued)

      that unauthorized or poorly configured wireless networks could be creating new
      vulnerabilities. 'The report found significant security weaknesses at six major
      federal agencies including signal leakage, insecure configurations of wireless
      equipment, and unauthorized devices.

      Infi,r~,lcitionSecurity: Inzprovirzg Oversigllt c!f'Access to Federal Systenis and
      Llntci by Contructors Cun Reduce Risk, (GAO-05-362, April 2005). GAO
      reported that most of the agencies reviewed did not have policies or provide
      guidance in key areas for overseeing the information security practices of
      contractors, to ensure compliance with contract requirements and agency
      information security policies. For example, GAO noted that agency pol~ciesdid
      not describe oversight methods (including control of agency data in an off-site
      facility); the frequency of reviews or assessments; key management controls to
      mitigate unauthorized disclosure of information; physical/logical access controls;
      or the introduction of unauthorized features, including. Without such policies,
      agencies may not be able to effectively and efficiently assess the security controls
      of contractor operations or other users with privileged access to federal data and
      systems. As a result, GAO concluded that agencies are at increased risk of losing
      control of network connections, experiencing unauthorized use of information and
      m~il~cious   activity that introduces viruses and worms.

Office of Independent Oversight

      Indc~l~enclent
                   Oversiglzt Cyber Scc~lrityIn.spectio~ic?f'tlzePunte,~Plcint c~ndtlze
      Puntex Site Oflice, May 2006.

      Inrlepentlent Ovc.rsight In.spection of'Cyber Seclirity lit tlle S a v u n n ~ River
                                                                                     ~ l ~ Site,
      April 2006.

      41dc~pendent Oversigllt Unurzno~azcedPe?letrution Test (Red Teunz) oflDep~lrtrnent
      c?f'EnercqyHe~~dclucirters,
                               February 2006.

      Independent Oversiglzt Uncl~znounc.edPenetrution Test (Red Teurn) of tlze
      Nutionul Renew~ibleEnergy Luboratory, January 2006.

      In~lepen~lentOversiglzt Ununnouncecl Penetrutiotl Test (Red Teunz) oftlze
      Nutioliul Nuclour Security Acl~ninistrutionService Center, November 2005.

      DOE Cyher Security Project Teum Sil~nnluryReport und Plarz of Action,
      November 2005.




Page 14                                                                         Prior ~ e ~ o r t s
Appendix 3




                                           Department of Energy
                                                Waehington, D C   20686



          MEMORANDUM FOR RICKEY R. HASS
                         DIRECTOR, OFFICE OF PERFORMANCE AUDJTS


          FROM.
                         OFFICE OF MSPECTOR G

                                   THOMAS N . PYKE, JR.
                                   C H E F MFORMATION OFFICER
                                                              m&
          SUBJECT:                 Draft Evaluation Report on "The Department's Unclassified
                                   Cyber Security Program - 2006"

          Thank you for the opportunity to cornmcnt on this draft report. The Office of the Chief
          Information Officer (OC10) appreciates very much the effort that has gone into this
          comprehensive report. The information in the report will enable OClO and the program offices
          to take appropriate follow-up action on specific findings, as well as to continue to work in the
          most effective way to improve the Department's cyber security posture. We concur with each of
          the recommendations in the report.

          We appreciate the recognition in the report of the ongoing Dcpartment-wide cyber security
          revitalization effort. The Cyher Security Revitalization Plan establishes a governance framework
          for cyber security management in the Department through a partnership betwccn OClO and the
          Under Secretaries and other senior management to provide adequate protection of all DOE
          information and information systems. Efforts to date implementing the Plan include issuance by
          OClO of cyber security guidance on: Management, Opcration, and Technical Controls for
          information Systems; Certification and Accreditation; Risk Management for lnforrnation
          Systems; Vulnerability Management; Interconnection Agreements; Plans of Actions and
          Milestoncs; Contingency Planning; Password Management; Wireless Devices; Risk
          Management, and Personally Identifiable Information.

          Also. during the last year the Cyber Security Executive Steering Committee was established,
          which guided the development of the Revitalization Plan, and we also established the Cyber
          Security Working Group, under the Steering Committee, that participates actively in the
          development ofcyber security guidance and in other cyber security activities. We have made
          significant improvements to our cyber incident handling capability, including initiating
          continuing action in real time by a Department-wide cyber forensics team that addresses thc mosl
          serious cyber attacks that we face. We have irnprovcd coordination about incidents with other
          Federal agencies and improved reporting about cyber incidents to the Inspector General and
          other key Department organizations. We have engaged in a continuing cyber security awareness
          campaign involving DOE scnior management and the entire complex, especially with regard to
          actions everyone can take to improve our cyber security posture.




Page 15                                                                   Management Comments
                                                             IG Report No. DOEl1G-0738

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with 11s. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

I . What additional background information about the selection, scheduling, scope, or
    procedures of the inspection would have been helpful to the reader in understanding
    this report'?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this repoll which would have been helpful?

5 . Please include your name and telephone number so that we may contact you should
    we have any qi~estionsabout your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax i t to the Office of lnspector
General at (202) 586-0948, or you may mail it to:

                           Office of lnspector General (TG- I )
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
 and cost effective as possible. Therefore, this report will be available electronically through the
                                 Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page



  Your comments would be appreciated and can be provided on the Customer Response Form.
